   November 24, 2003




Acquisition

Development Testing of Space
Based Infrared System Mission-
Critical Software
(D-2004-022)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFI        Air Force Instruction
CA         Certifying Authority
DAA        Designated Approval Authority
DITSCAP    DoD Information Technology Security Certification and Accreditation
            Process
IATO       Interim Authority to Operate
IHC        Interim Highly Elliptical Orbit Capability
IPT        Integrated Product Team
IRT        Independent Review Team
SSAA       System Security Authorization Agreement
SBIRS      Space Based Infrared System
SEIT       System Engineering Integration Team
SMM        System Maturity Matrix
          Office of the Inspector General of the Department of Defense
Report No. D-2004-022                                                 November 24, 2003
   (Project No. D2002PT-0206)

            Development Testing of Space Based Infrared System
                        Mission-Critical Software

                                 Executive Summary

Who Should Read This Report and Why? Acquisition officials, program managers,
and software managers who are responsible for the development and test of software
should read this report. It explains steps for effective government oversight of
development testing as well as information assurance requirements for developmental
test information systems.

Background. This report is one of a series, which evaluate the adequacy of development
testing of mission-critical software in selected weapon systems. The previous report
“Development Testing of Prophet Mission-Critical Software,” (D-2003-051) January 22,
2003, reviewed software development testing in the Army Prophet system. This report
reviews the testing of mission-critical software contained in the Air Force Space Based
Infrared System High.

The Space Based Infrared System (SBIRS) High is a constellation of high altitude
satellites with a ground system. It is the successor to the Defense Support Program with
the mission to provide missile warning, missile defense, technical intelligence, and battle
space characterization. Development of SBIRS High is in two increments. Increment 1
achieved initial operational capability in December 2001. Increment 2 is currently in
development and is scheduled to be complete in FY 2010. Estimated cost for
Increments 1 and 2 is $4.86 billion.

During the fall of 2001, the SBIRS Program Director reported a likely Nunn-McCurdy
Breach. On December 31, 2001, the Secretary of the Air Force notified Congress that the
program had a cost breach. Because of the breach, the Under Secretary of Defense for
Acquisition, Technology, and Logistics performed program reviews. In addition, during
the time of the review the Under Secretary of the Air Force directed that the program
office remove the total system performance responsibility clause from the contract.
Based on those efforts the program was recertified on May 3, 2002.

Results. The program office has not implemented effective requirement flow control by
tracking the technical progress of requirements, assumed responsibility for approving all
critical test plans and reports and established a metric for annually reporting extended
developmental testing. The Designated Approval Authority inappropriately issued an
Interim Authority To Operate for the Interim Highly Elliptical Orbit Capability and
annually plans to issue one until initial operational capability scheduled for FY 2010.

Without effective management and oversight of development testing, Space Based
Infrared System High is at risk of repeating problems previously identified by the
Independent Review Team during program recertification, which included inadequate

                                             i
management of requirements, insufficient oversight of system development and lack of
meaningful metrics. The System Program Director, Space Based Infrared System, Space
and Missile Systems Center should implement a System Maturity Matrix or similar tool,
assume sign off responsibility for all critical test plans and reports, and provide to key
decisions makers an annual interim test report documenting extended developmental
testing. For details of this recommendation, see finding A of this report.

Validation of system security features for the Interim Highly Elliptical Orbit Capability
as required by the Defense Information Technology Security Certification and
Accreditation Process were incomplete. By not validating the correct implementation
and operation of system security features, the correctness of Interim Highly Elliptical
Orbit Capability test data is in doubt, and its capability to test, assess, and support Space
Based Infrared System is questionable. The Certifying Authority should ensure all
validation tasks, which include security test and evaluation and penetration test are
complete. The Designated Approval Authority should then accredit, withhold
accreditation, or issue an Interim Authority To Operate. In addition, the Program
Director should remove the reaccreditation requirement for an annual Interim Authority
To Operate from the System Security Authorization Agreement and plan to have the
Interim Highly Elliptical Orbit Capability achieve full accreditation within the next 12
months. For details of this recommendation, see finding B of this report.

Management Comments and Evaluation Response. The System Program Director,
SBIRS, Space and Missile Systems Center agreed to develop a System Maturity Matrix,
and stated that the program office approves all critical system test plans and reports. The
System Program Director agreed to implement an annual interim test report during
extended developmental testing. In addition, the System Program Director agreed to
complete security testing for the Interim Highly Elliptical Orbit Capability – now known
as the Interim Test Center, and have the Designated Approval Authority verify that all
validation tasks are completed before issuing an accreditation decision. The System
Program Director also agreed to discontinue the use if the Interim Authority to Operate as
a “recurring, routine exercise,” but anticipated using an Interim Authority to Operate for
an additional 2 years. A discussion of management comments is in the Findings section
of the report and the complete text is in the Management Comments section.

The System Program Director comments were responsive. However, we require further
detail in order to determine if the actions are sufficient. Specifically, the System Program
Director agreed to develop a System Maturity Matrix, but did not explain how the
System Maturity Matrix will track requirements to effectivities and test results. We
request that the System Program Director provide a description of the System Maturity
Matrix explaining how it will track requirements to effectivities and test results. In
addition, the System Program Director stated that the program office approves all critical
system test plans and reports but did not explain whether the critical test plans and
reports we identified, that did not require government approval, were included. We
request that the System Program Director provide detailed information on the
government approval process for the critical test plans and reports that we identified as
not requiring government approval. As a final point, the System Program Director stated
that security testing for the Interim Test Center is planned for completion in December
2003, and the use of the Interim Authority to Operate as a re-accreditation requirement
will be discontinued. We request that the System Program Director provide the updated
Interim Test Center System Security Authorization Agreement containing the summary
of the Interim Test Center security test results as well as the plan to achieve full
accreditation. We request that the documents be provided by January 26, 2004.


                                              ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   3

Findings
     A. Management and Oversight of Development Testing                     4
     B. Interim Highly Elliptical Orbit Capability Temporary Authority to
          Operate                                                           13

Appendixes
     A. Scope and Methodology                                               21
         Management Control Program Review                                  22
     B. Prior Coverage                                                      24
     C. Definitions of Technical Terms                                      25
     D. Report Distribution                                                 27

Management Comments
     Department of the Air Force                                            29
Background
    This report is one of a series, which evaluate the adequacy of development testing
    of mission-critical software in selected weapon systems. The previous report
    “Development Testing of Prophet Mission-Critical Software,” (D-2003-051)
    January 22, 2003, reviewed software development testing in the Army Prophet
    system. This report reviews the testing of mission-critical software contained in
    the Air Force Space Based Infrared System High.
    Space Based Infrared System. The Space Based Infrared System (SBIRS) High
    is a constellation of high altitude satellites with a ground system and is the
    successor to the Defense Support Program with the mission to provide missile
    warning, missile defense, technical intelligence, and battle space characterization.
    SBIRS High consists of a space segment and a ground segment and is being
    developed in two increments. The space segment will employ overhead non-
    imaging infrared satellite systems in geosynchronous and highly elliptical orbits.
    The ground segment consolidates the Defense Support Program ground assets to
    support continuing space operations and provides the capabilities to support
    transitions, launch, and mission operations for the SBIRS High space segment.
    Increment 1, which consolidated the current ground assets and is currently
    supporting Defense Support Program operations, achieved initial operational
    capability in December 2001. Increment 2, which replaces the Defense Support
    Program satellites with the SBIRS High constellation, adds capability to the
    ground segment. Increment 2 is in development and is scheduled to be complete
    in FY 2010. Estimated cost for Increments 1 and 2 is $4.86 billion. The program
    office has stated that the cost of SBIRS High software is $892.3 million.

    Program Recertification. During the fall of 2001, the SBIRS Program Office
    performed an estimate at completion analysis because of questionable cost and
    schedule parameters in the Acquisition Program Baseline. The analysis reported
    a potential research, development, test and evaluation cost growth in excess of
    $2 billion and schedule delays of 18-24 months. As a result, the System Program
    Director reported a likely Nunn-McCurdy Breach. On December 31, 2001, the
    Secretary of the Air Force notified Congress that the SBIRS High program had a
    cost breach. Because of the breach, the Under Secretary of Defense for
    Acquisition, Technology, and Logistics conducted program reviews, which
    included an Independent Review Team (IRT). In addition, during the time of the
    review, the Under Secretary of the Air Force directed the program office to
    remove the total system performance responsibility clause from the contract.
    Based upon the need of the program for national security, a revised acquisition
    strategy, implementation of IRT recommendations, and the removal of the total
    system performance responsibility, the program was recertified on May 3, 2002.

    Development Testing Objectives. Two objectives of development testing are to
    verify system compliance to specifications and to demonstrate system readiness to
    enter operational test and evaluation. Verification of SBIRS ground software
    requirements is done through a series of test activities called the software
    development lifecycle. During the development lifecycle, code and unit test,
    development integration test, and component integration test progressively verify


                                         1
that the software meets the design, performs correctly, and integrates with other
components. In the course of component integration testing, ground segment
design document qualification and segment verification tests are performed to
verify software requirement specifications and ground segment requirements.
Once segment verification tests are complete, the System Engineering Integration
Team accepts the ground segment software and performs a series of system level
tests. For Increment 2, system level tests verify that the integrated ground and
space segments meet SBIRS High component specifications. Successful
completion of system level tests ensures system intersegment interface
compatibility and system operational capability.

Certification and Accreditation of Development Sites. During the evaluation,
we reviewed the status of information assurance for SBIRS development sites
used for software development. There are three contractor development sites
used for development, integration, and testing of SBIRS ground segment, space
segment, and system software. The locations of the contractor development sites
are Sunnyvale, California; Azusa, California; and Boulder, Colorado.
DoD 5220.22-M National Industrial Security Program Operating Manual applies
to all contractor information systems that process classified information and is
used for contractor information system certification and accreditation. The
Defense Security Service oversees the certification and accreditation of all three
contractor development sites and ensures that they are in compliance with DoD
policy. According to DoD 5220.22-M, in order for a contractor development
facility to be certified and accredited it must have an Automated Information
System Security Plan and an accreditation letter approved by a cognizant security
agency. During our review, we were able to verify that an Automated
Information Security Plan and a Defense Security Service accreditation letter
exist for the Sunnyvale and Azusa contractor development sites. We requested
the Automated Information System Security Plan and accreditation letter for the
Boulder site during our visit to Boulder in October 2002. In February 2003, we
received an Automated Information System Security Plan for Boulder dated
February 3, 2003. In addition, in February 2003 the Defense Security Service
provided us an Interim Authority to Operate (IATO) for Boulder. An IATO gives
permission for an information system to operate before formal certification and
accreditation and the signing of the accreditation letter. The date of the IATO
was February 24, 2003. We contacted the Defense Security Service regional
representative and discussed the discrepancy concerning the dates of our request
and the issuance of the Boulder Automated Information System Security Plan and
IATO. The Defense Security Service representative told us that the Boulder
facility has been certified for 10 years and that the IATO was issued in February
2003 in order to meet new DoD 5220.22-M requirements. We also met with the
Defense Security Service Assistant Deputy Director for Operations who told us
that they plan to issue a new IATO because the current one is based on old
requirements. In addition, DSS provided a synopsis of their oversight of the
Boulder site and a summary of the different equipment configurations used since
the facility became operational in 1982.




                                    2
Objectives
    The overall objective of our evaluation was to review issues concerning
    development testing and evaluation of SBIRS High mission-critical software.
    Specifically, we evaluated the completeness and adequacy of the testing to
    include planning, executing, and reporting of two ground-segment software
    domains: Telemetry, Tracking, and Commanding; and Mission Processing. We
    also reviewed specific areas during SBIRS development testing concerning
    information assurance, interface and interoperability testing, and computer test
    resources.




                                        3
           A. Management and Oversight of
              Development Testing
           The program office has not implemented effective requirement flow
           control by tracking technical progress of user and system requirements to
           test results and effectivity milestones, assumed approval responsibility for
           all critical test plans and reports, and established a meaningful metric for
           key decision makers by annually reporting extended development testing.
           Those conditions occurred because the program office has not
           implemented management and oversight requirements specified in Air
           Force Instruction 99-101, “Developmental Test and Evaluation.”
           Specifically, the program office does not have a System Maturity Matrix
           or an equivalent management tool used to track the program’s technical
           progress and risks, the program office does not sign off on all critical test
           plans and reports, and the program office has not planned for the issuance
           of annual interim test reports during extended developmental testing. As a
           result, without effective management and oversight of development
           testing, the $4.86 billion program is at risk of repeating problems
           previously identified during program recertification, which included
           inadequate management of requirements, insufficient oversight of system
           development, and lack of meaningful metrics.

Space Based Infrared System Program Recertification
    Space Based Infrared System (SBIRS) High is in the Engineering and
    Manufacturing Development Phase of the program. Since the contract award in
    1996, the program has experienced technical difficulties, schedule delays, and
    cost increases. Because of questionable cost and schedule parameters in the
    Acquisition Program Baseline, the SBIRS Program Office performed an Estimate
    at Completion analysis. The analysis disclosed a potential research development
    test and evaluation cost growth in excess of $2 billion and schedule delays of
    18-24 months. As a result, the System Program Director reported a likely
    Nunn-McCurdy Breach. On December 31, 2001, the Secretary of the Air Force
    notified Congress that the SBIRS High program had a Nunn-McCurdy cost
    breach. Because the breach involved a program acquisition cost unit above the
    25 percent threshold for SBIRS High, the Defense Acquisition Executive was
    required to certify to Congress that the program is essential to national security,
    there are no alternatives that provide the same capability at less cost, new costs
    are reasonable, and program management is adequate to control costs.

    In order to provide necessary information for program recertification, the Under
    Secretary of Defense for Acquisition, Technology, and Logistics performed
    program reviews between the period of December 2001 and April 2002. Part of
    those reviews included an assessment of the program by an Independent Review
    Team (IRT). The IRT identified a number of deficiencies in the program, such as
    improper control mechanisms for the management of requirements;
    circumvention of responsibilities while the total system performance
    responsibility clause was in place, and the lack of meaningful metrics for
    determining technical progress.


                                         4
    The IRT proposed recommendations correcting the deficiencies. (IRT Summary),
    (IRT pg 33-40) At the same time, the Under Secretary of the Air Force also
    directed the program office to remove the total system performance responsibility
    clause from the contract. The program manager removed the clause.

    The Defense Acquisition Executive completed the Nunn-McCurdy certification
    activities and an acquisition decision memorandum documenting certification also
    directed a revised acquisition strategy be approved by the end of August 2002.
    Approval of the revised acquisition strategy included the implementation of the
    IRT recommendations.


Requirements for Management Oversight of Development
  Testing
    Air Force Instruction 99-101, “Developmental Test and Evaluation,”
    November 1, 1996. Air Force Instruction (AFI) 99-101 provides mandatory
    procedures for the management of development test and evaluation programs on
    systems, subsystems, and components and it describes planning, conducting, and
    reporting cost-effective development test and evaluation to support acquisition
    and sustainment program decisions and actions throughout a system’s life cycle.
    AFI 99-101 requires that all acquisition programs, with the exception of programs
    in production that have met all of their user requirements, require a System
    Maturity Matrix (SMM). The SMM is an acquisition management tool used to
    aid in tracking a program’s technical progress and risk. SMM links user
    requirements, allocated requirements, and system specifications to expected test
    results to be achieved over time and provides critical technical and operational
    characteristics that will be assessed at major decisions or event milestones. The
    instruction states that the greater reliance on contractors for testing, the greater the
    need for knowledgeable government officials, and that the system manager along
    with the responsible test organization will approve all test plans and reports and
    will oversee contractor testing. In addition, the instruction states that when a
    program has an extended test phase, the instruction requires that the responsible
    test organization provide annual interim test reports.

    Air Force Manual 99-113, “Space Systems Test and Evaluation Process
    Direction And Methodology for Space System Testing,” May 1, 1996. Air
    Force Manual 99-113 provides the Space Systems Test and Evaluation Process
    for use by program mangers, test engineers, test organization personnel, major
    command headquarters staffs, and others regardless of command level, involved
    in Space Systems Test and Evaluation. Nonuse of the process is by exception
    only. The process includes the use of an SMM. The manual states that during
    test definition the SMM should be a primary reference for understanding what the
    expected capabilities and levels of performance of the system are to be at the time
    of the test, and that during tracking and reporting of cumulative test results the
    tester should relate test objectives to documented user requirements and SMM
    interim values. The manual requires that in order to measure system progress
    toward meeting user needs, test program results shall provide a clear picture of
    system maturity toward meeting the user’s documented requirements and that


                                           5
     decision makers need test results to determine whether to grant programs
     approval to proceed through each milestone. The manual also states that an
     annual test process summary is to be generated by the program office, which will
     record all Development Test and Evaluation and Operational Test and Evaluation
     accomplished, key test process decisions, test and evaluation deficiencies, and
     identified risk areas. This document can be included in the annual interim test
     report.


Tracking Technical Progress of User and System
  Requirements to Test Results and Effectivity Milestones
     The program office has not implemented effective requirement flow control by
     tracking development of the SBIRS High ground segment software as it relates to
     user requirements, and by tracking technical progress of user and system
     requirements to test results and effectivity milestones. In particular, the program
     office does not have a SMM or an equivalent tool. Such a tool would permit the
     program manager to link user requirements and system specifications to ground
     segment software requirements test results, and permit the program manager to
     track the technical progress of requirements by mapping ground segment software
     requirements to software increments, and high component specifications to
     effectivity milestones. In addition, the SMM would allow the program manager
     to trace back test results from software and system tests to user requirements.

     Requirements Process. SBIRS High user requirements flow down to SBIRS
     High component specifications, then to ground segment requirements, and finally
     to software requirement specifications. The Systems Engineering Integration
     Team (SEIT) maintains traceability of high component specifications to ground
     segment requirements in the Modified Design Compliance Matrix. The Modified
     Design Compliance Matrix provides the basis for the Requirements Verification
     Ledger. The Requirements Verification Ledger identifies each high component
     specification requirement to be verified during testing as well as the approach,
     method, criteria, and status. The ground segment Integrated Product Team (IPT)
     maintains traceability of ground segment requirements to software requirement
     specifications in the ground segment design document. The ground segment
     software IPTs use the Requirements Traceability and Management tool for
     documenting requirements, traceability, and test verification. Part of the
     Requirements Traceability Management tool is the Requirement Verification
     Planning tool, which contains the verification method, approach, and a
     completeness check for each requirement. SEIT personnel are involved in final
     Ground Segment level tests to ensure that the Ground Segment is ready for site
     installation and system level test.

     Tracking Requirements to Test Results. The ground segment test report
     documents test results for ground segment software testing. The test results are
     mapped to ground segment requirements. The SEIT uses those results in order to
     determine if the ground segment is ready for integration and system level testing.
     Before a software increment undergoes ground segment testing, it is developed



                                          6
     and tested by code and unit test, development integration test, component
     integration test and ground segment design document verification test. Each of
     those activities progressively verifies that the software meets the design, performs
     correctly, and integrates successfully with other hardware and software
     components. The program manager does not have a tool which would link
     software requirements tested back to high component specifications or user
     requirements and permit analysis of software maturity and development progress.

     Tracking Requirements to Effectivity Milestones. SBIRS High is currently in
     Engineering and Manufacturing Development Phase. Delivery of ground
     software is in blocks, with each block increasing mission utility. During our
     evaluation, we reviewed two blocks: the Highly Elliptical Orbit Intersegment
     Test and Early On-Orbit Test. Deliveries of incremental system capability called
     effectivity, include ground and space segments. Effectivity indicates a level of
     system design maturity and represents a decision point to continued system
     development. There are 10 effectivities for SBIRS High. During our evaluation,
     we were unable to identify a tool that would allow the program manager to link
     user requirements to ground segment requirement test results, map high
     component specifications to effectivities, and map ground segment requirements
     to a specific software block. In the course of our evaluation, the program office
     informed us that the SEIT was in the process of developing a method of tracing
     high component specifications to effectivities.

     During program recertification, the IRT recommended a block acquisition
     approach to ensure requirements satisfaction as well as implementing disciplined
     processes with meaningful metrics. Actions taken by the program office to
     implement those recommendations have not included an SMM or a similar tool.
     Without the SMM, there still exists inadequate management of requirements since
     the program manager is unable to track the technical progress of user and system
     requirements to test results, software blocks, and effectivity milestones.
     Specifically the program manager is unable to trace user requirements to ground
     segment verification test results, map ground segment requirements to software
     blocks, map high component specifications to effectivities and perform crucial
     analysis for determining software and system maturity.


Approval Responsibility for Critical Test Plans and Reports
     The program office has not assumed responsibility for approving all critical
     development test plans and reports. The program office is a participant in IPTs
     and SEIT. Both are responsible for reviewing plans, implementation, and results
     for many critical test activities. The program office relies on contractor
     representatives to sign off on numerous test results used to support program
     management decisions, thereby passing on oversight responsibility to the
     contractor. In particular, the government does not sign off on ground segment test
     plans and reports, and does not sign off on the subsequent SBIRS system tests for
     intersegment compatibility and initial telemetry tracking and commanding, and
     payload interface. Signing off on a test plan or test result indicates that the



                                          7
software or system is ready to continue to the next major integration and test
event.

Approval Process. SBIRS software IPTs define software builds, test plans, and
schedules for ground segment software. The IPT represents all software
disciplines: management, systems engineering, specialty engineering, software
configuration management, software quality assurance, test, and software
development. IPT membership also includes a government representative.
During ground segment development, the government representative is a
participant in the ground segment IPT, which designs, tests, and verifies ground
segment software. In addition to normal IPT functions, the government
representative also attends management meetings, engineering review and change
control board meetings, and other relevant working groups and reviews. If the
government representative has an unresolved issue with the IPT, he or she notifies
the program office.

The SEIT, a contractor organization, is responsible for system development test
and evaluation and maintains oversight of ground segment activities to assess its
readiness to participate in system level tests. The SEIT test team consists of
members of the High Orbit Space Vehicle IPT, ground segment IPT, test staff,
and participating government organizations. The SEIT Test Director with the
support of the SEIT test team is responsible for planning, conducting, and
reporting the system level tests. The SEIT is also the sign off approval authority
for ground segment requirement verification tests. Ground segment verification
tests are critical because they ensure that ground segment software is ready for
integration and test at the SBIRS system level.

Critical Tests. System test, which includes the space and ground segment, is the
incremental process that ensures intersegment interface compatibility and system
operational capability. System level tests use a building block approach.
Completion of system level tests demonstrates segment interface compatibility,
functionality, external element interoperability, and overall operational readiness.
Critical system tests include intersegment compatibility, telemetry, tracking, and
commanding, and payload interface functional test, pre-deployment readiness,
launch base compatibility, post-deployment initial test, post-deployment
integration and calibrations and combined development test/operational test. For
pre-deployment readiness and launch base compatibility tests, the government is
the final approval authority. For post-deployment initial test and post-deployment
integration and calibration events, the government participates in test readiness
reviews and test exit reviews. For intersegment compatibility, telemetry,
tracking, and commanding, and payload interface functional tests the SEIT is the
sign approval authority.

During our review of SBIRS system test reports for telemetry, tracking, and
commanding, and payload interface, we found that test results addressed SBIRS
High ground requirements, instead of high component specifications as required
by the SBIRS Program Verification Plan, and that deficiencies generated did not
have dispositions as required by SBIRS System Test Plan. We believe that with
government approval authority, the test report would have more accurately
documented what the test plans required.



                                     8
    Contractor Reliance. Even though the total system performance responsibility
    clause was removed from the contract, the program office is dependent upon
    contractor IPTs and SEIT for determining the adequacy of development test
    planning and test results. Furthermore, during program recertification one of the
    primary reasons for removing the clause was that the IRT identified
    circumvention of roles and responsibilities as a significant cause for past
    difficulties. With the reliance on contractor testing as well as the delegation of
    testing approval to the contractor, there is the risk that development testing will
    not provide an adequate assessment of software and system technical progress. In
    particular, AFI 99-101 states that there is a need for knowledgeable government
    officials to oversee testing and approve contractor test plans and reports. For
    SBIRS, oversight and approval of contractor test plans and reports should include
    all critical ground segment, space segment, and SBIRS system tests such as
    ground segment verification, intersegment compatibility, telemetry, tracking, and
    commanding, and payload interface.

Extended Development Testing Annual Interim Test Report
    The program office has not established a meaningful metric for managing
    program’s progress by establishing the requirement for annually reporting the
    extended developmental testing. The purpose of the annual interim test report is
    to document development and operational test accomplished, key test process
    decisions, test deficiencies, and identified risk areas. AFI 99-101 requires an
    annual interim test report when a program has an extended developmental test and
    evaluation period. SBIRS High Increment 2 has an extended developmental test
    and evaluation period with the intent of testing payload/satellite flight operations
    support activities after completion of space system tests for follow-on early orbit
    and payload calibration. Program documents such as the Single Acquisition
    Management Plan, Test and Evaluation Master Plan, and Integrated Test and
    Evaluation Plan do not call for an annual interim test report during extended
    developmental testing. Without the annual interim test report the program
    manager lacks a meaningful metric for assessing and reporting the progress of
    development testing.

    Extended Developmental Testing. SBIRS High Increment 2 schedule identified
    extended developmental test and evaluation being performed from FY 2004 to
    FY 2008. The Combined Task Force along with supporting contractors will be
    conducting the tests. SBIRS High extended developmental tests include testing
    the interim mission control station backup and the mission control station, and
    ground segment checkout, launch, on-orbit test, and interim operations of Highly
    Elliptical Orbit and Geostationary Earth Orbit satellite payloads. Results of those
    tests support the assessment of SBIRS High capabilities, the decision to proceed
    with development of the next ground software increment, and the transitioning of
    developmental testing to operational testing.

    Annual Interim Test Report. During program recertification, the IRT found
    that the program office lacked meaningful metrics to assess program progress and
    that the program office had overly optimistic assumptions in the area of software
    development, which led to unrealistic schedules. In order to address those issues,



                                         9
    the program office established metrics for measuring program executability and
    implemented an incremental delivery approach for ground software.
    Establishment of the Combined Task Force and extended developmental testing
    supports incremental ground software deliveries and block deliveries of SBIRS
    system capabilities. Nevertheless, the program office stated that there is no plan
    to annually report the results, deficiencies, and risks identified by the Combined
    Task Force during extended developmental testing. Such reporting to some
    extent would address the identified IRT deficiency. In particular, an annual
    interim test report would provide the program manager meaningful metrics for
    measuring progress of development tests as well as providing important
    information for key management decisions.


Conclusion
    Improved management and oversight of the SBIRS High is needed to reduce the
    risk of repeating problems previously identified during program recertification.
    During program recertification, the IRT identified deficiencies and corrective
    actions. Even though programmatic and contract changes have been
    implemented, the program office has not implemented effective requirement flow
    control by tracking the technical progress of requirements, assuming
    responsibility for approving all critical test plans and reports, and establishing a
    metric for annually reporting extended developmental testing. First, the program
    office should implement an SMM or similar tool for tracking the technical
    progress of user and system requirements to test results and effectivity milestones.
    Next, the program office should assume sign off responsibility for all critical test
    plans and reports so that development tests and results will provide adequate
    information for tracking technical progress and supporting program management
    decisions. Finally, the program office should provide to key decision makers an
    annual interim test report documenting extended developmental testing.


Recommendations, Management Comments, and Evaluation
  Response
    A. We recommend that the System Program Director, Space Based Infrared
    System, Space and Missile Systems Center:

            1. Implement a System Maturity Matrix, as required by Air Force
    Instruction 99-101, “Developmental Test And Evaluation,” November 1,
    1996, for tracking the system technical progress and maturity, by mapping
    user requirements and high component system specifications to ground
    segment software blocks, ground and space segment verification tests, system
    tests and effectivity milestones.

    Management Comments. The System Program Director, SBIRS, Space and
    Missile Systems Center concurred, and agreed to develop an SMM that will
    include mapping requirements to effectivities.


                                        10
Evaluation Response. The System Program Director comment is responsive.
We believe that having the SMM map requirements to effectivities, software
blocks and test results will be an effective tool in implementing and managing the
delivery of system blocks. We request that the System Program Director provide
detailed information on how the SMM will track requirements to effectivities and
test results.

       2. Approve all critical test plans and reports as required by Air Force
Instruction 99-101, “Developmental Test And Evaluation,” November 1,
1996, by:

              a. Assume sign off authority responsibility for all ground
segment, space segment, and system critical test plans and reports. Critical
test plans and reports include ground segment verification, intersegment
compatibility, telemetry tracking and commanding, and payload interface
tests.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center partially concurred. The System Program Director stated
that they approve all critical system test plans and reports and that they have the
authority to approve or disapprove test plans that merit their decision. The
System Program Director also stated that along with their federally funded
research and development center, they are involved in all critical system and
segment level tests.

Evaluation Response. Although the System Program Director partially
concurred, we consider the comments responsive. We based our analysis on the
Integrated Master Plan and review of test plans and reports. We determined that
not all critical ground segment, space segment, and SBIRS system tests such as
ground segment verification, intersegment compatibility, telemetry, tracking, and
commanding, and payload interface require government sign off authority. We
also found that test reports for telemetry, tracking, and commanding, and payload
interface, which do not require government sign off, did not meet requirements
stated in the program verification plan. We request that the System Program
Director provide detailed information on the government approval process for the
critical test plans and reports we identified that did not require government
approval. We also request that the System Program Director state if the
deficiencies we identified in the test reports for telemetry, tracking and,
commanding, and payload interface have been corrected.

               b. Update the Test and Evaluation Management Plan to
specify that the program office is the sign off authority for all critical ground
segment, space segment and system test plans and reports.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center concurred. The System Program Director stated that the
Test and Evaluation Master Plan update is in progress and will reflect changes
stated in management comments in response to recommendation A.2.a.




                                    11
       3. Develop and implement procedures for the issuance to key
program decision makers an annual interim test report during extended
developmental testing as required by Air Force Instruction 99-101,
“Developmental Test And Evaluation,” November 1, 1996. The test report
should include analysis of developmental and operational tests accomplished,
key test process decisions, test deficiencies, and identified risk areas.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center concurred. The System Program Director stated use of
the annual interim test report will help in the efforts to restore full government
authority and accountability for SBIRS High.




                                     12
            B. Interim Highly Elliptical Orbit
            Capability Temporary Authority to
            Operate
            An Interim Authority To Operate (IATO) dated November 4, 2002, was
            inappropriately issued by the Designated Approval Authority for the
            Interim Highly Elliptical Orbit Capability (IHC). In addition, the Space
            Based Infrared System (SBIRS) Program Office plans to improperly issue
            a yearly IATO until initial operational capability scheduled in FY 2010.
            Issuance of the IATO was not in accordance with the Department of
            Defense Information Technology Security Certification and Accreditation
            Process. Specifically, during system validation the Certifying Authority
            (CA) did not ensure that the system security requirements were met by
            completing critical security tests and the Designated Approval Authority
            (DAA) did not make certain that validation tasks were complete before
            issuance of the IATO. Furthermore, the re-accreditation requirement in
            the System Security Authorization Agreement (SSAA) incorrectly makes
            use of the IATO to annually allow the IHC to operate. As a result, by not
            validating the correct implementation and operation of system security
            features, which affect system availability, integrity, authentication,
            confidentiality, the correctness of IHC test data is in doubt and the
            capability of IHC to test, assess, and support SBIRS is questionable.


Information Assurance for Interim Highly Elliptical Orbit
   Capability
     Information Assurance is information operations that protect and defend
     information systems by ensuring their availability, integrity, authentication,
     confidentiality, and non-repudiation. It includes providing for the restoration of
     information systems by incorporating protection, detection, and reaction
     capabilities. An information system can be any computer related equipment or
     interconnected system or subsystems of equipment that is used in the acquisition,
     storage, manipulation, management, movement, control, display, reception of
     voice and or data, and includes software, firmware, and hardware.

     Interim Highly Elliptical Orbit Capability Systems. The IHC is a stand-alone
     ground segment information system that supports the launch, early on-orbit tests,
     and analysis mode processing of the SBIRS Highly Elliptical Orbit Infrared
     Payload. The IHC consists of four subsystems and a connecting network. The
     four subsystems are the Interim Highly Elliptical Orbit Test Center, the Mission
     Control Station Technical Intelligence Center, the SBIRS Anomaly Resolution
     Center, and the Relay Ground Station. All of which have software, firmware, and
     hardware. The interim test center serves as the IHC control center and provides
     the mission control station capabilities. The technical intelligence center provides
     analysis support for missile warning. The anomaly resolution center enhances



                                         13
     telemetry, tracking, and command between the ground system and payload
     personnel by providing a more rapid response and integrated effort. The relay
     ground station provides the interface and archive capability between the ground
     station and the interim test center.

     Availability, Integrity, Authentication, and Confidentiality. For the IHC,
     protection of system availability, integrity, authentication, and confidentiality are
     essential. More over, if controls were not in place to ensure availability, integrity,
     authentication, and confidentiality of the IHC, its resources, and data, there would
     be uncertainty that tests performed by the IHC as well as test results were correct.

     Availability is the timely and reliable access to data and information services for
     authorized users. The IHC needs to be timely and reliable in order to perform
     mission planning, mission management, mission processing, and control of space
     and ground segment hardware and software.

     Integrity is the condition existing when data is unchanged from its source and has
     not been accidentally or maliciously modified, altered, or destroyed. IHC data
     includes sensor, telemetry, mission planning, mission scheduling, ground and
     space segment control, archive and system administration. All IHC data needs to
     be accurate and unchanged. If data is incorrect, the IHC will not be able to
     perform any of its tasks such as providing reliable control of satellites, accurately
     processing mission data, and correctly managing and controlling IHC hardware
     and software.

     Authentication is a security measure designed to establish the validity of a
     transmission, message, user or system or a means of verifying an individual’s
     authorization to receive specific categories of information. IHC authentication
     separates users into four categories: system level, configuration management,
     database management, and application operation. If IHC authentication did not
     provide adequate separation of user access to system resources, a user could
     unintentionally or maliciously affect IHC availability, integrity, authentication,
     and confidentiality.

     Confidentiality is an assurance that information is not disclosed to unauthorized
     persons, processes, or devices. The IHC processes data up to the DoD Secret
     level and is required to operate in the high mode, which is defined as all users of
     the system having the appropriate clearance to system information but not all
     users having the need to know for all information. Confidentiality is required to
     restrict who or what can access need to know information and system resources as
     well as determining what type of access is permitted.


System Security Certification and Accreditation Requirements
  for Interim Highly Elliptical Orbit Capability
     DoD Instruction 5200.40, “Department of Defense Information Technology
     Security Certification and Accreditation Process Instruction (DITSCAP),”



                                          14
     December 30, 1997. DITSCAP defines a process that standardizes the activities
     leading to system security accreditation, and applies to the acquisition, operation,
     and sustainment of any DoD system that collects stores, transmits, or processes
     unclassified or classified information. The SBIRS Program Office is required to
     use DITSCAP for the IHC. The DITSCAP process consists of four phases:
     Phase 1, Definition; Phase 2, Verification; Phase 3, Validation; and Phase 4, Post
     Accreditation. Information collected during Phase 1 is used to determine the
     certification level of the system, which in turn determines the level of effort
     required. Phase 2 is to verify system compliance with security requirements and
     evaluate vulnerabilities. Phase 3 is used to validate that the fully integrated
     system operates in a specified computing environment with an acceptable level of
     risk. Completion of Phase 3 culminates in the accreditation of the system.
     Phase 4 is used to manage and operate the system while preserving an acceptable
     level of residual risk. During Phase 3 if a system does not meet requirements, but
     mission criticality mandates that the system become operational, a temporary
     approval may be issued. If a temporary approval is used, the system is required to
     return to Phase 1 activities to negotiate accepted solutions, schedule, necessary
     security actions, and milestones.

     DoD 8510.1-M, “Department of Defense Information Technology and
     Security Certification and Accreditation Process (DITSCAP) Application
     Manual,” July 31, 2000. This manual supports DITSCAP by presenting a
     detailed approach to the activities comprising the certification and accreditation
     process as well as the content of SSAA. Chapter 3, Phase 1 definition provides a
     task description on how to determine the appropriate certification level of a
     system. The certification level of a system determines the level of analysis
     required for the certification and accreditation process for all four phases.
     Chapter 5, Phase 3 validation provides a task description on ensuring that
     requirements and agreements apply, certifying that the fully integrated and
     operational system comply with stated requirements and during certification
     performing tests and evaluations to validate all security features are in place. At
     the completion of Phase 3, if the CA concludes that the system satisfies security
     requirements, the CA recommends that the DAA accredit the system. If the CA
     uncovers deficiencies but believes that short-term operation of the system is
     within acceptable bounds, the CA may recommend to the DAA an IATO. The
     DAA then reviews the CA’s recommendation and determines whether to accredit
     the system or not. If the DAA determines that the system does not meet
     requirements but mission criticality mandates that the system become operational,
     the DAA may issue an IATO.


Basis Used for the Interim Authority to Operate
     On November 4, 2002, the DAA issued an IATO for the IHC. In addition, the
     SBIRS Program Office plans to issue a yearly IHC IATO until initial operational
     capability scheduled in FY 2010. Before issuance of IATO, the IHC SSAA dated
     May 2002 documented that the security test and evaluation certification test was
     incomplete, and that penetration testing certification test was not done.
     Furthermore, the IHC SSAA re-accreditation requirement states “IHC elements


                                         15
will be receiving IATO accreditations on a yearly basis and full accreditation after
operational initial operational capability,” thereby possibly avoiding further IHC
security test and evaluation and penetration testing.

System Security Requirements. The IHC SSAA is the IHC certification and
accreditation package and generally follows the SSAA format required by
DITSCAP. The SSAA is a formal agreement among the DAA, CA, user
representative, and program manager. The SSAA is required to document the
DITSCAP process used for certifying and accrediting the system. DoD 8510.1-M
provides an outline on what is required in SSAA. It requires SSAA to contain
sections, which identify system security and re-accreditation requirements, and
calculate a system certification level.

IHC SSAA states that there are system security requirements for data, files,
operating systems, applications, databases, and networks and that system
certification Level is 3. The SSAA security requirement section states that IHC
operating systems meet Class 2 criteria. Class 2 criteria include unique user
logon Ids and passwords, auditing and accountability of users and processes, and
access controls for the protection of object reuse. IHC operating systems achieve
Class 2 requirements by implementing the following system security
requirements: identification and authentication for all system users, assurance
measures such as encryption, security countermeasures, and auditing, and access
controls for files, operating systems, applications, and databases. Also included
in the SSAA security requirement section are tools for managing network
security, which are the Simple Network Management Protocol, Enterprise
Security Management, and the Unix Privilege Manager. The SSAA security
requirement section states that IHC elements will be receiving IATO
accreditations on a yearly basis and full accreditation after operational initial
operational capability.

Level of Effort. Along with the security requirements, the DITSCAP
Application Manual also requires attachments to the SSAA. A few of the
required appendixes are the Security Test and Evaluation Plan and Procedures,
the Test and Evaluation Reports, the Residual Risk Assessment Results, and the
Certification and Accreditation Statement. The Security Test Plans and Test
Evaluation Reports verify and validate that the system security requirements have
been met; the Residual Risk Assessment analyzes threats and the vulnerability of
the information system to those threats; and the Certification and Accreditation
Statement is the DAA approval to operate the system. Along with those required
appendixes, the IHC SSAA also includes Minimal Security Activity Checklists
and the Network Vulnerability Assessment. The Minimal Security Activity
Checklist documents analysis and work performed on the system and the Network
Vulnerability Assessment assesses the adequacy of security measures for the
network.

The IHC SSAA appendixes do document the level of effort performed by the
contractor during the certification and accreditation process. The Security Test
and Evaluation appendix states “due to IHC network maturity level on 1 April
2002, this report is postponed as such time, as the IHC network is ready for full
security test and evaluation;” and the Residual Risk Assessment appendix states
“Air Force Operational Test and Evaluation Center has been contacted about


                                    16
    doing an Air Force penetration assessment.” The Minimal Security Activity
    Checklist, Task 3-1 and 3-2 state “security test and evaluation have not been
    performed and there has not been a penetration test assessment.” The Network
    Vulnerability Assessment appendix states, “vulnerability assessment of the IHC
    network is under review by government for applicability.” Lastly, the
    Certification and Accreditation Statement appendix includes an IATO for the IHC
    dated November 4, 2002, which permits the IHC to operate for a 12-month period
    while security verification testing is being performed.

    All of the appendixes in the IHC SSAA indicate that during the 12-month period
    while the IHC is being used for SBIRS High early on-orbit development testing,
    system security requirements, such as Class 2 criterion, and network management
    tools will not be validated. Without validation, there will be doubt on the
    protection of IHC availability, integrity, authentication, and confidentiality.

Remaining Requirements for Interim Authority to Operate
  Issuance

    The IHC CA did not ensure that system security requirements were met by
    completing system security test and evaluation, penetration testing and the DAA
    did not make certain validation tasks were complete before issuance of the IATO.
    Furthermore, the IATO re-accreditation requirement in the IHC SSAA incorrectly
    makes use of the IATO to annually allow the IHC to operate. For IHC a Level 3
    system, security functions must be tested to verify the integration and operation of
    all security features. Security test and evaluation must validate the correct
    implementation of identification and authentication, audit capabilities, access
    controls, object reuse, trusted recovery, discretionary access controls and network
    connection rule compliance. Penetration testing must include insider and outsider
    penetration attempts based on known vulnerabilities and the implemented system
    must be tested for flaws, with the results described to an appropriate level for the
    exploitation.

    DoD Instruction 5200.40 and DoD 8510.1-M define the process required for
    certification and accreditation as well as the issuance of an IATO. During the
    DITSCAP definition phase, the CA determines the appropriate certification level
    of the system and during the validation phase the CA ensures that all security
    requirements are met by making sure all required security testing is complete. At
    the completion of the validation phase, the CA provides an accreditation
    recommendation to the DAA. If the DAA determines that the system does not
    meet requirements but mission criticality mandates that the system become
    operational, the DAA may then issue an IATO.

    The CA has determined that the IHC certification Level is 3. However, the
    appendixes, which contain the security test and evaluation report, penetration
    testing, minimal security activity checklist and network vulnerability assessment,
    do not document completion of required Level 3 security testing. The CA should
    have ensured that security testing was complete before submitting a



                                        17
    recommendation to the DAA and the DAA should have reviewed the SSAA and
    verified that all required testing was complete before issuance of the IATO. By
    verifying completion of required testing the DAA would have been certain that
    IHC system security requirements, such as Class 2 criterion, network security
    were correct. Furthermore, the SSAA re-accreditation requirement states that the
    SBIRS Program Office plans to issue an annual IATO for IHC until initial
    operational capability, scheduled for FY 2010. Such a requirement may
    circumvent security tests required to validate security requirements until initial
    operational capability.


Conclusion
    By not validating the correct implementation and operation of system and
    network security features, which affect system availability, integrity,
    authentication, confidentiality, the correctness of IHC test data is in doubt and the
    capability of IHC to accurately test, assess and support SBIRS High system is
    questionable. DITSCAP requires validation of system security and network
    security features and for a Level 3 or higher system a security test and evaluation
    and penetration test before system accreditation or issuance of an IATO. The
    DAA has granted IHC an IATO for a 12-month period while it is supporting
    development testing of SBIRS High early on-orbit tests. However, the DAA’s
    decision to issue an IATO did not follow DITSCAP because IHC SSAA shows
    that the system is at Level 3, and security test and evaluation and penetration test
    are incomplete. In addition, IHC SSAA states that the program office plans to
    issue an annual IATO until initial operational capability scheduled for FY 2010.
    The CA should ensure all IHC validation tasks, which include security test and
    evaluation and penetration test are complete. The DAA should then accredit IHC,
    withhold accreditation, or issue an IATO. Also, the Program Director should
    remove the reaccreditation requirement for an annual IHC IATO from the SSAA
    and plan to have IHC achieve full accreditation within the next 12 months.


Recommendations, Management Comments, and Evaluation
  Response
    B.1. We recommend that the Interim Highly Elliptical Orbit Capability
    Certifying Authority:

           a. Complete all validation tasks, which include security test and
    evaluation and penetration test for the Interim Highly Elliptical Orbit
    Capability.

          b. Document test results in the Interim Highly Elliptical Orbit
    Capability System Security Authorization Agreement.




                                         18
       c. Provide recommendation to the Interim Highly Elliptical Orbit
Capability Designated Approval Authority whether to accredit, withhold
accreditation or issue an Interim Authority to Operate.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center concurred. The System Program Director stated that
detailed DITSCAP Phase III security testing is scheduled to be complete in
December 2003.

Evaluation Response. The System Program Director comments were
responsive. We request that the System Program Director provide us the updated
IHC – now known as the Interim Test Center, SSAA that contains a summary of
the security test results once the tests are complete.

B.2. We recommend that the Interim Highly Elliptical Orbit Capability
Designated Approval Authority:

      a. Verify all certification tasks, which include security testing are
complete.

       b. Accredit, withhold accreditation, or issue an Interim Authority to
Operate for the Interim Highly Elliptical Orbit Capability based on
Certifying Authority recommendation, certification task findings, and
System Security Authorization Agreement documents.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center concurred.

B.3. We recommend that the System Program Director, Space Based
Infrared System, Space and Missile Systems Center:

       a. Remove the annual Interim Authority to Operate re-accreditation
requirement from the Interim Highly Elliptical Orbit Capability System
Security Authorization Agreement.

       b. Plan to have the Interim Highly Elliptical Orbit Capability
achieve full accreditation within the next 12 months.

      c. Document the plan in the Interim Highly Elliptical Orbit
Capability System Security Authorization Agreement.

Management Comments. The System Program Director, SBIRS, Space and
Missile Systems Center partially concurred. The System Program Director stated
that they agree to remove the IHC – now known as the Interim Test Center,
annual IATO re-accreditation requirement but they chose to use the IATO as a
viable alternative during system maturation.

Evaluation Response. Although the System Program Director partially
concurred, we consider the comments responsive. We chose a 12–month time
period for the IHC– now known as the Interim Test Center, to achieve full


                                  19
accreditation based on the IATO provided by the program office. We
acknowledge that achieving full accreditation during system maturation is
difficult. We also believe that proper use of an IATO does provide a level of
assurance that the Interim Test Center is performing correctly. We request that
the System Program Director provide the updated Interim Test Center SSAA that
documents the plan to achieve final accreditation.




                                   20
Appendix A. Scope and Methodology
   To accomplish our evaluation objective, we examined development testing of
   SBIRS mission-critical software, which included planning, execution, and
   reporting. We reviewed system level testing. We reviewed information
   assurance testing, interface and interoperability testing, certification and
   accreditation and computer test resources.

   We reviewed the organizational structure, software development process, and
   software development testing of SBIRS High Increment 2 ground segment. We
   reviewed portions of the current SBIRS High Component – Engineering
   Manufacturing Development Program Contract and a section of the original
   contract, which described Total System Performance Responsibility. We
   obtained and reviewed the SBIRS Single Acquisition Management Plan, Test and
   Evaluation Master Plan, Integrated Master Plan, Integrated Test and Evaluation
   Plan, Program Verification Plan, System Test Plan, and the Ground Segment Test
   Plans. We reviewed the System Protection Guide, Computer Security Plan, the
   System Security Authorization Agreement, and other certification and
   accreditation documents for development test information systems. We reviewed
   the Command, Control, Communications, Computers, and Intelligence Support
   Plan and Interface Control Plans. We reviewed requirement documents,
   including the Operational Requirements Document, the SBIRS High Component
   Specification and trace documents pertaining to the Ground Segment Design
   Documents. We reviewed deficiency reports, as well as the corrective action
   process. We obtained and reviewed test reports for the two software domains we
   examined.

   We selected two software domains in SBIRS that contain mission-critical
   software for our evaluation. The first domain we selected was the Telemetry,
   Tracking, and Commanding domain within Highly Elliptical Orbit Intersegment
   Test, which had already completed the software development lifecycle. The
   second domain we selected was the Highly Elliptical Orbit Early-On-Orbit Test
   Mission Processing domain, which was going through the software development
   lifecycle during our evaluation. We visited the SBIRS Program Office in Los
   Angeles, California, and the contractor development and test facilities in Boulder,
   Colorado, and Azusa, California, to verify and validate test process and test
   results.

   At the test facilities, we observed demonstrations of simulated SBIRS satellite
   operations and processing simulated satellite sensor exceedance data. We also
   received a walkthrough of the Mission Processing domain’s system development
   folders capability, which is used for storage of programs and test results during
   development test and evaluation.

   Our evaluation reviewed issues concerning development testing and evaluation of
   the SBIRS mission-critical software. Specifically, we evaluated the completeness
   and adequacy of the testing to include planning, executing and reporting of two
   ground-segment software domains: Highly Elliptical Orbit Intersegment



                                       21
    Telemetry, Tracking, and Commanding; and Highly Elliptical Orbit Early-On-
    Orbit Test Mission Processing. We also reviewed specific areas of SBIRS
    development testing concerning information assurance, interface, and
    interoperability testing and computer test resources.

    We performed this evaluation from September 2002 to June 2003 according to
    standards implemented by the Inspector General of the Department of Defense.
    We visited or contacted individuals and organizations within DoD, Aerospace
    Corporation, Lockheed Martin Corporation, and Northrop Grumman Corporation
    to review software testing.

    Use of Computer-Processed data. We reviewed data contained in management
    databases such as the Modified Design Compliance Matrix, the Requirements
    Traceability Matrix, and the Requirements Verification Ledger. We used this
    data to analyze requirement traceability and satisfaction. The Configuration
    Control Board manages the Modified Design Compliance Matrix the Requirement
    Traceability Matrix, and the Requirements Verification Ledger. Our findings are
    not dependent on the data contained in those databases. Nothing came to our
    attention because of the procedures that caused us to doubt the reliability of the
    computer-processed data.

    We did not review the accuracy of the algorithms that process satellite data, as
    that was beyond the scope of this evaluation.

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This evaluation report provides
    coverage of the Defense Systems Modernization high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. Management
    control was not an announced objective of this evaluation. However, we
    reviewed the management control program as it related to the overall evaluation
    objectives, which included requirements flow control for the tracking of user
    requirements,system specifications and technical progress to software and system
    testing; responsible sign off authority for test plans and reports, and a metric used
    to annually report extended developmental testing (see Finding A). In addition,
    we reviewed management’s system security certification and accreditation
    process for the Interim Highly Elliptical Orbit Capability (see Finding B). We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at the SBIRS Program Office as defined by DoD Instruction



                                         22
5010.40. The SBIRS Program Manager has not implemented a System Maturity
Matrix or similar management tool; has not assumed approval responsibility for
all critical test plans and reports; and has not established the process for issuance
of annual interim test report metric. The SBIRS Program Manager should
implement a System Maturity Matrix or similar management tool for tracking the
technical progress of user and system requirements to test results and effectivity
milestones, should be the responsible authority for signing off all critical
development test plans and reports, and should establish the metric of issuing
annual interim test reports during extended developmental testing to key program
decision makers.

If management implements the recommendations, the management control
weaknesses identified will be corrected. A copy of the report will be provided to
the senior official responsible for management controls within the office of the
Air Force Program Executive Officer for Space.

Adequacy of Management’s Self-Evaluation. On December 31, 2001, the
Secretary of the Air Force notified Congress that the SBIRS High program had a
Nunn-McCurdy cost breach. The cost breach was a material weakness. In order
to fulfill Nunn-McCurdy requirements for program recertification, the Under
Secretary of Defense for Acquisition, Logistics, and Technology conducted
program reviews. These reviews included an evaluation of SBIRS by an IRT.
The IRT reported on the root causes of the Nunn-McCurdy cost breach along with
corrective actions. IRT corrective actions included establishment of requirements
flow control, delivering system capabilities in blocks, and the establishment of
new meaningful metrics.

Although the IRT evaluation identified and reported on the root causes of the
Nunn-McCurdy Breach, the SBIRS Program Office did not completely implement
corrections for the material weakness. In particular, SBIRS Program Office did
not follow the policies in AFI 99-101 for use of a System Maturity Matrix, the
program office had not assumed responsibility for sign off on all critical test plans
and reports, and the program office had not established the process for issuance of
annual interim test reports during extended developmental testing. Without
effective management and oversight of development testing, SBIRS High is at
significant risk of repeating problems previously identified during program
recertification.




                                     23
Appendix B. Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) has issued three
      reports related to SBIRS High, and three reports were issued by internal Air Force
      reviews. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov/.

GAO
      GAO Report No. GAO-04-48, “Despite Restructuring, SBIRS High Program
      Remains at Risk of Cost and Schedule Overruns,” October 31, 2003

      GAO Report No. GAO-02-738, “Military Space Operations - Planning, Funding,
      and Acquisition Challenges Facing Efforts to Strengthen Space Control,”
      September 23, 2002
      GAO Report No. GAO-01-7C, “Defense Acquisition: Risks Associated With
      Space-Based Missile Warning Need to be Addressed,” September 18, 2001

Air Force
      Independent Review Team, Report to Assistant Secretary of the Air Force
      (Acquisition) and Executive Vice President, Lockheed Martin Space Systems
      Company, February 2002

      Management Assessment Team, Report to Assistant Secretary of the Air Force
      (Acquisition), March 31, 2000

      Joint Estimate Team Report – May 1999




                                          24
Appendix C. Definitions of Technical Terms
Class 2 Security – Operating system security that includes unique user logon Ids and
passwords, auditing and accountability of users and processes, and access controls for the
protection of object reuse.

Code and Unit Test – The lowest level developer test of software. The purpose of unit
testing is to validate requirements expressed in the detailed design descriptions and
software requirements specifications. Unit testing is performed to ensure that all source
statements in a unit have been executed, each conditional branch has been taken, and that
all boundary values (for example, minimum-maximum values) and edit criteria are tested.

Component Integration and Test – Ground segment design document qualification and
segment verification tests are performed to verify software requirement specifications
and ground segment requirements.

Development Integration Test – The step in the software development lifecycle that
follows code and unit test; it consists of the integration of code modules to form
executables and/or libraries.

Effectivity – The point at which a major system requirement capability becomes
available to the SBIRS Program. SBIRS Increment 2 development is divided into
10 effectivities.

Interim Highly Elliptical Orbit Capability (IHC) – Four SBIRS subsystems, plus the
connecting network. The subsystems consist of the Interim Highly Elliptical Orbit Test
Center, the Mission Control Station Technical Intelligence Center, the SBIRS Anomaly
Resolution Center, and the Relay Ground Station.

Mission-Critical Software – Any software that operates the system.

Mission Processing – One of the five software domains in SBIRS. Accepts satellite
telemetry; performs mission processing for Theater, Strategic, Battlespace
Characterization, and Technical Intelligence missions; performs Human-to-Computer
interface tasks; prepares messages for user communication interface, and other tasks.

Penetration Test – Security testing in which evaluators attempt to circumvent the
security features of a system based on their understanding of the system design and
implementation, to identify methods of gaining access to a system by using common
tools and techniques developed by hackers.

Space Based Infrared System (SBIRS) Increment 1 – Consolidation of Defense
Support Program assets under the SBIRS High program.

Space Based Infrared System (SBIRS) Increment 2 – Delivery of SBIRS High
satellites and additional capability for the ground segment.




                                           25
Security Certification Level 3 – A certification level for IT systems, determined by
weighting system characteristics in accordance with the DoD Information Technology
Security Certification and Accreditation Process. The level of effort required to perform
the certification is dependent on choosing the correct certification level.

Security Test and Evaluation – Examination and analysis of the safeguards required to
protect an information system, as they have been applied in an operational environment,
to determine the security posture of that system.

System Test – These tests verify that the integrated ground and space segments meet
SBIRS High component specifications.

Telemetry, Tracking, and Commanding – One of the five software domains in SBIRS.
This domain is responsible for providing the space to ground interface via telemetry and
command processing; it process satellite commanding requests from Mission
Management and operator; processes satellite and sensor state of health data for display
to the operator; and interfaces with Ground Control subsystem to provide status and to
accept and execute system reconfiguration actions.




                                           26
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisitions, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration/Administration
   and Management)
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Space and Missile Systems Center
  System Program Director, Space Based Infrared System, Space and Missile Systems
  Center

Other Defense Organization
Deputy Inspector General (Industrial Security), Defense Security Service

Non-Defense Federal Organization
Office of Management and Budget




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations
  and the Census, Committee on Government Reform




                                       28
Department of the Air Force Comments




                     29
30
31
32
33
Team Members
The Audit Followup and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

David A. Brinkman
Kenneth H. Stavenjord
Peter C. Johnson
Major Shurman L. Vines, USA
Ernest G. Fine
Ann A. Ferrante
Anne V. Bonds
